i?
'&~..,,,,.....

 "~+'~4"'V'CØ
                        DEPARTMENT
                        DEPARTMENTOF
                                   OFHEALTH
                                     HEALTH&.
                                            &. HUMAN
                                               HUMAN SERVICES
                                                     SERVICES                                                      Office
                                                                                                                   Office of
                                                                                                                          of Inspector
                                                                                                                             InspectorGeneral


                                                                                                                   Washington,
                                                                                                                                       General


                                                                                                                                D.C. 20201
                                                                                                                   Washington, D.C.   20201




                                                              APR 22112009
                                                              APR      2009

                 TO:
                 TO: Charlene  Frizzera
                          Charlene Frizzera
                                   Acting Administrator



                 FROM:
                 FROM: sephseph
                            E. Vengrin
                                E. Vengrin
                                              :f~
                                   Centers for Medicare
                                               Medicare && Medica'

                                              t/~
                                          Inspector General
                                   Deputy Inspector
                                                           Medica' Services



                                                    General for
                                                                    Services



                                                            for Audit
                                                                Audit Services
                                                                      Services


                            Review
                 SUBJECT: Review of of Emergency
                                    Emergency    HealthServices
                                               Health   ServicesatatFlorida
                                                                     FloridaHospital
                                                                             HospitalFurnished
                                                                                     Furnished to
                                                                                               to
                                                Aliens Covered
                                   Undocumented Aliens Covered by
                                                               by Section
                                                                  Section 101
                                                                          10111 of the Medicare Prescription
                                                      and Modernization Act of
                                   Drug, Improvement,.and
                                   Drug, Improvement, 
                     of 2003 (A-04-06-07007)


                 Attached is an advance copy ofof our final report on emergency health services at Florida Hospital
                 furnished to undocumented aliens covered by section 10110111 of
                                                                              of the
                                                                                 the Medicare
                                                                                      Medicare Prescription Drug,
                 Improvement, and
                 Improvement,   and Modernization
                                     ModernizationActActof2003
                                                          of2003 (MMA).
                                                                  (MMA). We wilwillissue
                                                                                     issue this
                                                                                            this report
                                                                                                  report to
                                                                                                         to Florida
                                                                                                            Florida
                 Hospital within 55 business
                 Hospital within             days.
                                    business days.



                 Section      1011 of the
                 Section 1011 of              MMA,
                                        the MMA,          "Federal ofReimbursement
                                                 "Federal Reimbursement 
                 of Emergency Health Services Furnished to
                 Undocumented
                 Undocumented Aliens"   Aliens" (section 1011), provided $250        $250 million  per year
                                                                                            millon per year for
                                                                                                            for fiscal
                                                                                                                fiscal years
                                                                                                                       years 2005
                 through 2008 2008   for  payments        to   eligible  providers  for emergency   health services  provided   to
                 undocumented aliens   aliens and other specified aliens pursuant to Emergency Medical Treatment and
                 Labor Act  Act (EMTALA)
                                  (EMTALA) requirements.
                                                    requirements. Under EMTALA,  EMTALA, a Medicare-participating
                                                                                               Medicare-paricipating hospital is to
                 provide an appropriate medical screening examination to any person, regardless of                     of ability to pay,
                 who comes
                         comes to  to the
                                      the hospital
                                           hospital emergency
                                                         emergency department            determine whether
                                                                         deparment to determine     whether an
                                                                                                             an emergency medical
                 condition
                 condition (EMC) (EMC) exists,
                                           exists. If If the
                                                          the examination
                                                                examination reveals
                                                                                reveals an EMC, the hospital must also provide
                 either treatment necessary to stabilize the EMC or an appropriate transfer to another medical
                 facility.     Florida Hospital's
                 facility. Florida      Hospital'sdesignated
                                                          designatedsection
                                                                          section1011
                                                                                   1011 program
                                                                                         program contractor
                                                                                                  contractor was
                                                                                                             was TrailBlazer
                                                                                                                  TrailBlazer Health
                                                                                                                                Health
                 Enterprises,
                 Enterprises, LLC (TrailBlazer).

                 Our objective
                     objective was
                                was to
                                    to determine
                                       determine whether claims submitted by Florida Hospital for services
                 provided
                 provided under section 1011
                          under  section  1011 for
                                                for the
                                                     the period
                                                         period May
                                                                May 1010 through
                                                                          through September
                                                                                   September 30,2005,
                                                                                               30,2005, were submitted
                 on
                 on behalf of
                           of individuals
                              individuals who
                                           who met eligibility requirements,
                                                                 requirements, were for
                                                                                      for eligible services, and were
                 adequately supported  and
                 adequately supported and   not  reimbursed   from  other  sources as required  by Federal regulations.

                 We
                 We selected
                     selectedfor
                               for review
                                   review a judgmental
                                             judgmental sample of   of 3311 claims
                                                                            claims totaling  $116,049
                                                                                    totaling $ 116,049that
                                                                                                        thatFlorida
                                                                                                             Florida Hospital
                                                                                                                     Hospital
                 submitted
                 submitted for
                            for payment
                                payment forfor the
                                                the period
                                                    period May
                                                            May 10
                                                                 10through
                                                                     throughSeptember
                                                                                September30, 30,2005.
                                                                                                 2005. In total,
                                                                                                          total, Florida
                 Hospital receiv.ed $198,342
                 Hospital receiv.ed  $ 1 98,342 for
                                                  for 82
                                                      82 claims for that
                                                         claims for that period.
                                                                           period.

Page 2 – Charlene Frizzera


Of the 31 sampled claims, 7 claims totaling $23,126 met section 1011 requirements and were
eligible for section 1011 program reimbursement. The 24 remaining claims totaling $92,923
were either partially or completely unallowable for section 1011 program reimbursement. As a
result, Florida Hospital received $67,200 in unallowable payments. The unallowable payments
occurred because Florida Hospital did not always follow its own policies and procedures for
ensuring that treatments were for EMCs and that medical records contained sufficient
documentation to support the eligibility of the patients and that the services had been provided.
Furthermore, Florida Hospital’s written policies and procedures did not address section 1011
requirements limiting coverage of services up to the point of patient stabilization.

We recommend that Florida Hospital:

   •   refund to TrailBlazer $67,200 for services that did not meet section 1011 reimbursement
       requirements;

   •   review the 51 remaining claims for our audit period, totaling $82,293, and claims for
       subsequent periods and submit adjustments for any claims that did not meet section 1011
       reimbursement requirements;

   •   follow its existing policies and procedures to ensure that future section 1011 program
       claims meet section 1011 reimbursement requirements; and

   •   develop and implement procedures to ensure that section 1011 program claims are for
       covered services up to the point of stabilization rather than through the patients’ entire
       hospital stays.

In written comments on our draft report, Florida Hospital did not directly comment on the first
three of our four recommendations. Regarding the fourth recommendation, the hospital said that
it had modified its internal processes and would ensure that all future claims are not billed past
the point of stabilization. The hospital disagreed with some findings but did not provide any
documentation with its written comments. In addition, Florida Hospital stated that it had made
modifications in its process to ensure that claims under section 1011 reimbursement met the
specific guidelines.

We reviewed Florida Hospital’s comments, but nothing we reviewed caused us to revise our
findings or recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-06-07007.


Attachment
                                      DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                     DEPARTMENT OF HEALTH AND HUMAN  SERVICESOffceOffice
                                                                                   of Inspector    General
                                                                                         of Inspector General




(~
 t-~ stRVJCES.V                                                                                                             Offce
                                                                                                                            OfficeofofAudit
                                                                                                                                      AuditServices
                                                                                                                                            Services

                                                                                                                                REGION
                                                                                                                                REGION IV
                                                                                                                                        IV
                                                                                                                   61
                                                                                                                   61 Forsyth
                                                                                                                      ForsythStreet,
                                                                                                                              Street,S,W.,
                                                                                                                                      S.W.,Suite
                                                                                                                                            Suite3T41
                                                                                                                                                  3T41
                                                                                                                         Atlanta,
                                                                                                                         Atlanta,Georgia
                                                                                                                                  Georgia30303
-~.:::t.                                                                                                                                  30303


                                                                      APR 22772009

                                                                      APR      2009
                  Report Number:
                  Report Number: A-04-06-07007
                                 A-04-06-07007

                  Mr. Coy
                  Mr.       L. Ingram
                       Coy L.  Ingram
                  Director, Patient Financial Services
                  Director,                   Services
                  Florida Hospital
                  Florida Hospital
                  601 East Rollins
                  601               Street
                            Rollns Street
                  Orlando, Florida 32803
                                     32803

                  Dear Mr.
                  Dear Mr. Ingram:

                           Ingram:

                  Enclosed is the U.S. Department of Health and Human Services (HHS),
                  Enclosed is the U.S. Deparment of 
                                                            (HHS), Office
                                                                                                                          Office ofInspector
                                                                                                                                 ofInspector
                  General       (DIG),     final    report     entitled
                  General (OIG), final report entitled "Review of 
         "Review       of Emergency      Health  Services
                                                                                                                    Services at
                                                                                                                             at Florida
                                                                                                                                Florida Hospital
                                                                                                                                        Hospital
                  Furnished to Undocumented Aliens               Aliens Covered
                                                                            Covered by     by Section
                                                                                              Section 101
                                                                                                        10111 of
                                                                                                              of the
                                                                                                                 the Medicare Prescription Drug,
                  Improvement,            and   Modernization            Act    of  2003."
                  Improvement, and Modernization Act of2003." We wil forward a copy of 
        We   will forward  a copy of this report to the
                  HHS action official             noted on
                                      offcial noted         onthethefollowing
                                                                        following page   page for
                                                                                               for review
                                                                                                    review and
                                                                                                            and any
                                                                                                                any action
                                                                                                                     action deemed
                                                                                                                            deemed necessary.
                                                                                                                                     necessary.

                  The HHS
                      HHS action
                            action official willmake
                                    offcial wil  makefinal
                                                        finaldetermination
                                                              determinationasasto
                                                                                toactions
                                                                                   actions taken
                                                                                            takenononall
                                                                                                       all matters
                                                                                                           matters reported.
                                                                                                                     reported.
                  We request that
                              that you
                                   you respond
                                        respond to
                                                 to this
                                                    this official
                                                         official within
                                                                  within 30
                                                                         30 days
                                                                            days from
                                                                                  from the
                                                                                        the date
                                                                                             date of
                                                                                                  of this
                                                                                                      this letter.
                                                                                                            letter. Your
                  response should present any comments or additional information that you believe may have a
                  bearing on the final determination.

                  Pursuant
                  Pursuant to theto  the principles
                                  principles of 
      of the Freedom
                                                               Freedom ofInformation Act,S       U.S.c. §§ 552,
                                                                                         Act, 5U.S.C.      552, as
                                                                                                                 as amended
                                                                                                                    amended by
                  Public Law 104-231, DIG         OIG    reports generally  are made  available to  the public to the extent the
                  information
                  information isis not    not subject
                                                subject to
                                                         to exemptions
                                                            exemptions ininthe
                                                                            theAct
                                                                                Act(45
                                                                                    (45CFR
                                                                                        CFRpart
                                                                                              par 5).   Accordingly, this report
                                                                                                   5). Accordingly,
                  will be posted on the Internet at http://oig,hhs.gov.
                                                               http://oig.hhs.gov.

                  If you
                     you have
                         have any
                              any questions or comments about this report, please do not hesitate to call me, or
                  contact Andrew A.
                                  A. Funtal, Audit Manager, at (404) 562-7762 or through e-mail at
                  Andrew.Funtal@oig.hhs.gov.     Please refer
                  Andrew,Funtal(ßoig.hhs.gov. Please    refer to
                                                              to report
                                                                 report number A-04-06-07007 in all
                  correspondence.
                  correspondence,

                                                                            Sincerely,
                                                                            Sincerely,

                                                                          (p~~ó3~
                                                                            Peter J.J, Barbera
                                                                            Peter      Barbera
                                                                            Regional Inspector
                                                                            Regional    Inspector General
                                                                                                   General
                                                                             for Audit
                                                                             for Audit Services
                                                                                          Services


                  Enclosure
                  Enclosure
Page 2 – Mr. Coy L. Ingram


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



   REVIEW OF EMERGENCY
HEALTH SERVICES AT FLORIDA
  HOSPITAL FURNISHED TO
  UNDOCUMENTED ALIENS
        COVERED BY
    SECTION 1011 OF THE
MEDICARE PRESCRIPTION DRUG,
     IMPROVEMENT, AND
 MODERNIZATION ACT OF 2003



                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-04-06-07007
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Sections 1866(a)(1)(I), 1866(a)(1)(N), and 1867 of the Social Security Act impose specific
obligations on Medicare-participating hospitals that offer emergency services. Section 1867 is
frequently referred to as the Emergency Medical Treatment and Labor Act (EMTALA).
Congress enacted EMTALA in 1986 because of its concerns with an increasing number of
reports that hospital emergency rooms were refusing to accept or treat individuals with
emergency conditions if the individual did not have insurance. Under EMTALA, a Medicare-
participating hospital is to provide an appropriate medical screening examination to any person,
regardless of ability to pay, who comes to the hospital emergency department “to determine
whether or not an emergency medical condition [(EMC)] . . . exists” (section 1867(a)). If the
examination reveals an EMC, the hospital must also provide either treatment necessary to
stabilize the EMC or an appropriate transfer to another medical facility.

In 2003, Congress enacted the Medicare Prescription Drug, Improvement, and Modernization
Act of 2003 (P.L. No. 108-173) (MMA). Section 1011 of the MMA, “Federal Reimbursement of
Emergency Health Services Furnished to Undocumented Aliens” (section 1011), provided
$250 million per year for fiscal years 2005 through 2008 for payments to eligible providers for
emergency health services provided to undocumented aliens and other specified aliens pursuant
to EMTALA requirements.

Located in Orlando, Florida, Florida Hospital is a Medicare-participating hospital that also
participates in the section 1011 program. Florida Hospital belongs to the Adventist Health
System. With the assistance of the designated section 1011 program contractor, TrailBlazer
Health Enterprises, LLC (TrailBlazer), we reviewed 31 judgmentally selected claims totaling
$116,049 Florida Hospital submitted for payment for the period May 10 through September 30,
2005. In total, Florida Hospital received $198,342 for 82 claims for that period.

OBJECTIVE

Our objective was to determine whether claims submitted by Florida Hospital for services
provided under section 1011 for the period May 10 through September 30, 2005, were submitted
on behalf of individuals who met eligibility requirements, were for eligible services, and were
adequately supported and not reimbursed from other sources as required by Federal regulations.

SUMMARY OF FINDINGS

From a sample of 31 Florida Hospital claims totaling $116,049, we found that 24 claims totaling
$92,923 were either partially or completely unallowable for section 1011 program reimbursement.
As a result, Florida hospital received $67,200 in unallowable payments. The 24 claims did not
meet section 1011 program reimbursement requirements because:

   •   Nine claims totaling $43,750 were for non-EMCs beyond initial screening by the hospital
       or for services that should have been excluded as having been for nonemergent
       conditions.

                                                i
   •   Four claims totaling $12,055 were for services provided beyond the point of patient
       stabilization.

   •   Ten claims totaling $11,353 did not have sufficient documentation to support the
       patient’s eligibility determination.

   •   One claim totaling $42 did not have sufficient documentation in the medical record to
       support the services provided.

The seven remaining claims totaling $23,126 met section 1011 requirements and were eligible
for section 1011 program reimbursement.

Although Florida Hospital had written policies and procedures that, if followed, might have
precluded some of the errors identified, Florida Hospital did not always follow its own policies
and procedures for ensuring that services were provided pursuant to section 1011 reimbursement
requirements. Furthermore, Florida Hospital’s written policies and procedures did not address
section 1011 requirements limiting coverage of services up to the point of stabilization.
Although the medical records documented when patients became stable during the EMC
treatment process, Florida Hospital did not establish procedures to use the point of stabilization
as the last day of covered services. Florida Hospital staff stated that they did not know that
services covered by section 1011 end at the point of stabilization. Florida Hospital routinely
submitted claims for the entire hospital stay.

RECOMMENDATIONS

We recommend that Florida Hospital:

   •   refund to TrailBlazer $67,200 for services that did not meet section 1011 reimbursement
       requirements;

   •   review the 51 remaining claims for our audit period, totaling $82,293, and claims for
       subsequent periods and submit adjustments for any claims that did not meet section 1011
       reimbursement requirements;

   •   follow its existing policies and procedures to ensure that future section 1011 program
       claims meet section 1011 reimbursement requirements; and

   •   develop and implement procedures to ensure that section 1011 program claims are for
       covered services up to the point of stabilization rather than through the patients’ entire
       hospital stays.

FLORIDA HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, Florida Hospital did not directly comment on the first
three of our four recommendations. Regarding the fourth recommendation, the hospital said that
it had modified its internal processes and would ensure that all future claims are not billed past

                                                 ii
the point of stabilization. The hospital disagreed with some findings but did not provide any
documentation with its written comments. In addition, Florida Hospital stated that it had made
modifications in its process to ensure that claims under section 1011 reimbursement met the
specific guidelines.

We reviewed Florida Hospital’s comments, but nothing we reviewed caused us to revise our
findings or recommendations. Florida Hospital’s comments appear in their entirety as the
Appendix.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION.............................................................................................................1

      BACKGROUND ........................................................................................................1
          Emergency Medical Treatment and Labor Act.................................................1
          Section 1011 of the Medicare Prescription Drug, Improvement, and
            Modernization Act of 2003............................................................................1
          TrailBlazer Health Enterprises..........................................................................2
          Florida Hospital ................................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
          Objective ...........................................................................................................2
          Scope.................................................................................................................2
          Methodology .....................................................................................................3

FINDINGS AND RECOMMENDATIONS ...................................................................4

      FEDERAL REQUIREMENTS...................................................................................4

      UNMET FEDERAL REQUIREMENTS ...................................................................6

      FLORIDA HOSPITAL POLICIES AND PROCEDURES........................................6

      RECOMMENDATIONS............................................................................................7

      FLORIDA HOSPITAL COMMENTS AND OFFICE OF INSPECTOR
      GENERAL RESPONSE………………………………....…………………………7

APPENDIX

     FLORIDA HOSPITAL COMMENTS




                                                                    iv
                                                INTRODUCTION

BACKGROUND

Emergency Medical Treatment and Labor Act

Sections 1866(a)(1)(I), 1866(a)(1)(N), and 1867 of the Social Security Act 1 (the Act) impose
specific obligations on Medicare-participating hospitals that offer emergency services. Section
1867 is frequently referred to as the Emergency Medical Treatment and Labor Act (EMTALA).
Congress enacted EMTALA in 1986 because of its concerns with an increasing number of
reports that hospital emergency rooms were refusing to accept or treat individuals with
emergency conditions if the individuals did not have insurance. Under EMTALA, a Medicare-
participating hospital is to provide an appropriate medical screening examination to any person,
regardless of ability to pay, who comes to the hospital emergency department “to determine
whether or not an emergency medical condition [(EMC)]. . . exists” (section 1867(a)). If the
examination reveals an EMC, the hospital must also provide either treatment necessary to
stabilize the EMC or an appropriate transfer to another medical facility.

Section 1011 of the Medicare Prescription Drug, Improvement, and Modernization Act
of 2003

In 2003, Congress enacted the Medicare Prescription Drug, Improvement, and Modernization Act
of 2003 (P. L. No. 108-173) 2 (MMA). Section 1011 of the MMA, “Federal Reimbursement of
Emergency Health Services Furnished to Undocumented Aliens” (section 1011), provided
$250 million per year for fiscal years (FY) 2005 through 2008 for payments to eligible providers
for emergency health services provided to undocumented aliens and other specified aliens
pursuant to EMTALA requirements. Two-thirds of the funds was divided among all 50 States and
the District of Columbia based on their relative percentages of undocumented aliens. One-third
was divided among the six States with the largest number of undocumented alien apprehensions
for each FY. 3 From the respective State allotments, payments were made directly to hospitals,
certain physicians, and ambulance providers using Medicare payment rules to calculate the
payment amount for some or all of the costs of providing eligible individuals with emergency
health care required under section 1867 of the Act and related hospital inpatient, outpatient, and
ambulance services.

Payments could be made for services furnished to certain individuals described in section 1011
of the MMA as (1) undocumented aliens, (2) aliens who have been paroled into the United States
at a U.S. port of entry for the purpose of receiving eligible services, and (3) Mexican citizens

1
    42 U.S.C. §§ 1866(a)(1)(I), 1866(a)(1)(N), and 1867.
2
    The Act, § 1860D-1(a), 42 U.S.C. § 1395w-101(a).
3
 The numbers of undocumented alien apprehensions were determined using the four consecutive quarters ending
before the beginning of the FY for which information is available. For FY 2005, the numbers from the period
April 1, 2003, to March 31, 2004, were used. During that period, data from the Department of Homeland Security
indicated that the six States with the largest number of undocumented alien apprehensions were Arizona, California,
Florida, New Mexico, New York, and Texas.


                                                           1
permitted to enter the United States under the authority of a biometric, machine-readable, border-
crossing identification card (also referred to as a “laser visa”). 4

TrailBlazer Health Enterprises

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, designated TrailBlazer Health Enterprises, LLC (TrailBlazer), as the national
processing and compliance contractor for the section 1011 program. TrailBlazer enrolls eligible
providers, assists with enrollment and billing questions, and calculates provider payment
amounts. In addition, TrailBlazer conducts prepayment or postpayment claim reviews, identifies
and assesses overpayments if necessary, and ensures compliance with section 1011.

Florida Hospital

Located in Orlando, Florida, Florida Hospital is a Medicare-participating hospital that also
participates in the section 1011 program. Florida Hospital belongs to the Adventist Health
System.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether claims submitted by Florida Hospital for services
provided under section 1011 for the period May 10 through September 30, 2005, were submitted
on behalf of individuals who met eligibility requirements, were for eligible services, and were
adequately supported and not reimbursed from other sources as required by Federal regulations.

Scope

Our review covered the period of May 10 through September 30, 2005. For this period, Florida
Hospital received section 1011 program payments of $198,342 for 82 claims.

We limited our review of internal controls to obtaining an understanding of the procedures for
implementing the section 1011 program.

We conducted fieldwork at TrailBlazer in Dallas, Texas, and at Florida Hospital in Orlando,
Florida.




4
 According to 8 U.S.C. § 1011(a)(6) the term 'border crossing identification card' means a document of identity
bearing that designation issued to an alien who is lawfully admitted for permanent residence, or to an alien who is a
resident in foreign contiguous territory, by a consular officer or an immigration officer for the purpose of crossing
over the borders between the United States and foreign contiguous territory in accordance with such conditions for
its issuance and use as may be prescribed by regulations.



                                                          2
Methodology

To accomplish our objective, we:

   •   met with and maintained ongoing communications with TrailBlazer officials;

   •   reviewed applicable laws, regulations, and CMS guidelines regarding the section 1011
       program;

   •   obtained and reviewed a listing of all emergency health claims submitted, approved, and
       paid under the section 1011 program during the audit period;

   •   obtained and reviewed a listing of all approved section 1011 program providers;

   •   selected for our review a judgmental sample of 31 section 1011 program claims
       submitted by Florida Hospital;

   •   interviewed Florida Hospital officials to obtain an understanding of the policies,
       procedures, and controls relating to the section 1011 program;

   •   obtained and reviewed the medical records and other documentation associated with the
       selected claims;

   •   requested TrailBlazer to perform a review of the medical and nonmedical documentation
       associated with the selected claims to determine whether:

           o claims were made on behalf of individuals who met eligibility criteria,

           o claims were for services that met the definition of emergency health services,

           o claims were for services provided during the patient’s stabilization period,

           o claims were made for properly supported services, and

           o providers exercised due diligence in ensuring that section 1011 program
             payments were the payments of last resort; and

   •   requested that TrailBlazer quantify any overpayments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                             FINDINGS AND RECOMMENDATIONS

From a sample of 31 Florida Hospital claims totaling $116,049, we found that 24 claims totaling
$92,923 were either partially or completely unallowable for section 1011 program reimbursement.
As a result, Florida hospital received $67,200 in unallowable payments. The 24 claims did not
meet section 1011 program reimbursement requirements because:

   •       Nine claims totaling $43,750 were for non-EMCs beyond initial screening by the hospital
           or for services that should have been excluded as having been for nonemergent
           conditions.

   •       Four claims totaling $12,055 were for services provided beyond the point of patient
           stabilization.

   •       Ten claims totaling $11,353 did not have sufficient documentation to support the
           patient’s eligibility determination.

   •       One claim totaling $42 did not have sufficient documentation in the medical record to
           support the services provided.

The seven remaining claims totaling $23,126 met section 1011 requirements and were eligible
for section 1011 program reimbursement.

Although Florida Hospital had written policies and procedures that, if followed, might have
precluded some of the errors identified, Florida Hospital did not always follow its own policies
and procedures for ensuring that services were provided pursuant to section 1011 reimbursement
requirements. Furthermore, Florida Hospital’s written policies and procedures did not address
section 1011 requirements limiting coverage of services up to the point of stabilization.
Although the medical records documented when patients became stable during the EMC
treatment process, Florida Hospital did not establish procedures to use the point of stabilization
as the last day of covered services. Florida Hospital staff stated that they did not know that
services covered by section 1011 end at the point of stabilization. Florida Hospital routinely
submitted claims for the entire hospital stay.

FEDERAL REQUIREMENTS

Section 1011 of the MMA sets forth the requirements governing Federal reimbursement of
emergency health services furnished to undocumented aliens. CMS issued as additional
guidance a final implementation notice delineating CMS’s section 1011 program implementation
approach, general framework, procedural rules, and general statements of policy. In addition,
42 CFR § 482.24(b) and (c) establishes medical record requirements for hospitals. The
requirements for each finding follow:

       •    Eligible Services—Section 1011(c)(4) states that “[p]ayments made to eligible
            providers . . . may only be used for costs incurred in providing eligible services to
            aliens.” Paragraph (e)(2) of section 1011 defines eligible services as “health care


                                                    4
    services required by the application of section 1867 of the . . . Act . . . and related
    hospital inpatient and outpatient services and ambulance services.” Eligible health care
    services are described in section 1867 as those provided to treat emergency medical
    conditions, which are defined as:

          (A) a medical condition manifesting itself by acute symptoms of sufficient
          severity (including severe pain) such that the absence of immediate
          medical attention could reasonably be expected to result in—(i) placing
          the health of the individual (or, with respect to a pregnant woman, the
          health of the woman or her unborn child) in serious jeopardy, (ii) serious
          impairment to bodily functions, or (iii) serious dysfunction of any bodily
          organ or part; or

          (B) with respect to a pregnant woman who is having contractions—(i) that
          there is inadequate time to effect a safe transfer to another hospital before
          delivery, or (ii) that transfer may pose a threat to the health or safety of the
          woman or the unborn child [section 1867 (e)(1)].

•   Point of Stabilization—Section VI of CMS’s final implementation notice (70 Fed. Reg.
    25,583 (May 13, 2005)) states that section 1011 program payments will be made for
    eligible services that begin when an individual arrives at the hospital emergency
    department and requests examination or treatment for a medical condition. If the
    hospital determines that the individual has an EMC, the hospital must either provide
    stabilizing treatment or transfer the individual. To be considered stable, a patient’s
    EMC must be resolved, even though the underlying medical condition may persist.

•   Adequate Eligibility Documentation—Section IX of CMS’s final implementation
    notice (70 Fed. Reg. 25,587 (May 13, 2005)) states that because section 1011 program
    payments are authorized only for the three categories of noncitizens specified in section
    1011(c)(5), providers are required to request, collect, and maintain information about
    the patient’s eligibility. Although providers are not required to use the information
    collection instrument designed by CMS, they must collect and maintain all of the
    information contained in the approved information collection instrument. If a patient
    refuses to or is unable to provide proof of eligibility, the provider should not submit an
    individual claim for the services delivered to that patient.

•   Content of Medical Records—Hospitals must maintain a medical record for each
    inpatient and outpatient (42 CFR § 482.24(b)) to “. . . justify admission and continued
    hospitalization, support the diagnosis, and describe the patient’s progress and response
    to medications and services” (42 CFR § 482.24(c)). Records must document evidence
    of a physical examination, admitting diagnosis, results of all consultative evaluations of
    the patient, practitioners’ orders, nursing notes, discharge summary, and final diagnosis,
    among other information (42 CFR § 482.24(c)(2)).




                                             5
UNMET FEDERAL REQUIREMENTS

Florida Hospital submitted 24 claims totaling $92,923 that were either partially or completely
unallowable for section 1011 program reimbursement. As a result, the hospital received $67,200
in payments that did not meet section 1011 program reimbursement requirements during our
audit period:

     •   For nine claims, the treatments provided were not for an EMC. We determined that
         either the patient did not require immediate medical attention beyond screening or the
         services in the submitted claims should have been excluded as having been for a
         nonemergent condition. Therefore, these nine claims did not meet the definition of an
         EMC as required by section 1011. For example, Florida Hospital submitted claims to
         the section 1011 program for four follow-up visits related to a previous EMC. The
         EMC was treated, and the patient was sent home on June 7, 2005, with doctor’s
         instructions to come back every other day for follow-up treatment. The patient came
         back to the emergency department on June 9, June 11, June 13, and June 15, 2005, and
         received follow-up treatments. In other cases, Florida Hospital submitted a claim to the
         section 1011 program for services such as chemotherapy and intravenous therapy.
         Florida Hospital received $43,750 in unallowable payments for these nine claims.

     •   For four claims, Florida Hospital received section 1011 program funds for services
         provided after the patient was stabilized. For these four claims, we reviewed each
         patient’s entire medical record and found that Florida Hospital provided treatment and
         stabilized the patient’s EMC. However, Florida hospital did not follow section VI of
         CMS’s final implementation notice because it submitted claims for the patient’s entire
         stay instead of submitting claims for only the services provided through stabilization.
         Florida Hospital received $12,055 in unallowable payments for these four claims.

     •   For 10 claims, the documentation provided did not support the patient’s eligibility
         determination. Florida Hospital screened individuals and collected supporting
         documentation as required by the section 1011 program requirements. However, for
         these 10 claims it did not collect and maintain the information required by the
         CMS-approved information collection instrument to support the patient’s eligibility
         determination. Florida Hospital received $11,353 in unallowable payments for these
         10 claims.

     •   For one claim, Florida Hospital submitted a claim for services that did not have
         adequate supporting documentation, such as progress notes, doctor’s orders, emergency
         room records, and nursing notes, as required by 42 CFR § 482.24(b) and (c). Florida
         Hospital received $42 in unallowable payments for this claim.

FLORIDA HOSPITAL POLICIES AND PROCEDURES

Although Florida Hospital had written policies and procedures that, if followed, might have
precluded some of the errors identified, Florida Hospital did not always follow its own policies
and procedures for ensuring that treatments were for EMCs and that medical records contained


                                                6
sufficient documentation to support the eligibility of the patients and that the services had been
provided.

Furthermore, Florida Hospital’s written policies and procedures did not address section 1011
requirements limiting coverage of services up to the point of stabilization. Although the medical
records documented when patients became stable during the EMC treatment process, Florida
Hospital did not establish procedures to use the point of stabilization as the last day of covered
services. Florida Hospital staff stated that they did not know that services covered by section
1011 end at the point of stabilization. Florida Hospital routinely submitted claims to the
section 1011 program for the entire hospital stay.

RECOMMENDATIONS

We recommend that Florida Hospital:

   •   refund to TrailBlazer $67,200 for services that did not meet section 1011 reimbursement
       requirements;

   •   review the 51 remaining claims for our audit period, totaling $82,293, and claims for
       subsequent periods and submit adjustments for any claims that did not meet section 1011
       reimbursement requirements;

   •   follow its existing policies and procedures to ensure that future section 1011 program
       claims meet section 1011 reimbursement requirements; and

   •   develop and implement procedures to ensure that section 1011 program claims are for
       covered services up to the point of stabilization rather than through the patients’ entire
       hospital stays.

FLORIDA HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, Florida Hospital did not directly comment on the first
three of our four recommendations. Regarding the fourth recommendation, the hospital said that
it had modified its internal processes and would ensure that all future claims are not billed past
the point of stabilization. The hospital disagreed with some findings but did not provide any
documentation with its written comments. In addition, Florida Hospital stated that it had made
modifications in its process to ensure that claims under section 1011 reimbursement met the
specific guidelines.

We reviewed Florida Hospital’s comments, but nothing we reviewed caused us to revise our
findings or recommendations. Florida Hospital’s comments appear in their entirety as the
Appendix.




                                                 7
APPENDIX
APPENDIX
 Page 1 of 3
APPENDIX
 Page 2 of 3
APPENDIX
 Page 3 of 3
